Nos. 19-635, 19-715, 19-760
In the Supreme Court of the United
__________________

States

DONALD J. TRUMP, Petitioner,
v.
CYRUS R. VANCE, JR., in His Official Capacity as District
Attorney of the County of New York, et al., Respondents.
__________________
DONALD J. TRUMP, ET AL., Petitioners,
v.
MAZARS USA, LLP, ET AL., Respondents.
__________________
DONALD J. TRUMP, ET AL., Petitioners,
v.
DEUTSCHE BANK AG, ET AL., Respondents.
__________________
On Writs of Certiorari to the United States
Courts of Appeals for the Second Circuit and the
District of Columbia Circuit
__________________
AMICUS BRIEF OF CHRISTIAN FAMILY
COALITION (CFC) FLORIDA, INC.
IN SUPPORT OF PETITIONERS
__________________
DENNIS GROSSMAN
Counsel of Record
6701 Sunset Drive, Suite 104
Miami, Florida 33143
(516) 466-6690
dagrossmanlaw@aol.com
Counsel for Amicus Curiae
February 3, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
AMICUS BRIEF OF CHRISTIAN FAMILY
COALITION (CFC) FLORIDA, INC., A
FLORIDA NOT-FOR-PROFIT CORPORATION
........................................ 1
INTEREST OF THE AMICUS . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. The Subpoenas Should Be Quashed Because of
the Plausible Risk They Will Cause Serious
Distraction and Diversion From Presidential
Duties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
a. Any Competent Attorney Would Recognize
The Implications of These Broad-Ranging
Subpoenas and Would Demand The Client’s
Immediate and Ongoing Attention –
Confirming Their Serious and Ongoing
Distraction . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
b. The Virtually Limitless Scope of the Present
Subpoenas Distinguishes Them From the
Narrow and Discrete Incursions This Court
Has Permitted Into the Presidential Sphere . 7
c. The Rationales Employed by the Second and
D.C. Circuits are Misplaced . . . . . . . . . . . . . . 9

ii
d. This Court Has Recognized the Need for
Complete Presidential Immunity To Prevent
the Type of Distraction These Subpoenas
Portend. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
e. The Present Subpoenas Violate the Spirit of
Article II and Undermine a Significant
Aspect of the 2016 Presidential Election . . . 14
f. The Issue Raised by the Petitions is Not a
Partisan or Political Issue, But an
Institutional Issue Upon Which the Integrity
of the Presidential Office Depends . . . . . . . . 15
II. In 19-635, The Subpoena Should Be Quashed
Also Because State and Local Authorities May
Not Issue Process Which Impairs The
President’s Ability to Perform His Official
Duties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iii
TABLE OF AUTHORITIES
CASES
Clinton v. Jones,
520 U.S. 681 (1997). . . . . . . . . . . . . . . . . . . passim
Johnson v. Maryland,
254 U.S. 51 (1920). . . . . . . . . . . . . . . . . . . . . . . . 16
M’Culloch v. Maryland,
17 U.S. 316 (1819). . . . . . . . . . . . . . . . . . . . . . . . 17
Mayo v. U.S.,
319 U.S. 441 (1943). . . . . . . . . . . . . . . . . . . . . . . 17
Nixon v. Fitzgerald,
457 U.S. 731 (1982). . . . . . . . . . . . . . . . . . . . 12, 13
Osborn v. Bank of United States,
22 U.S. 738 (1824). . . . . . . . . . . . . . . . . . . . . . . . 16
U.S. v. Nixon,
418 U.S. 683 (1974). . . . . . . . . . . . . . . . 7, 8, 14, 18
CONSTITUTION
U.S. Const. Amend. XII . . . . . . . . . . . . . . . . . . . . 3, 14
U.S. Const. Art. II . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. Art. VI, § 2 (Supremacy Clause) . . . . . 16

1
AMICUS BRIEF OF CHRISTIAN FAMILY
COALITION (CFC) FLORIDA, INC., A FLORIDA
NOT-FOR-PROFIT CORPORATION
The Christian Family Coalition (CFC) Florida, Inc.
(“CFC” or “Amicus”), hereby submits its Brief Amicus
Curiae in these 3 cases in support of the President of
The United States, Donald J. Trump, in his request to
(1) reverse the judgments of the Second and D.C.
Circuits, and to (2) order issuance of the injunctions the
President seeks to quash the disputed subpoenas.
INTEREST OF THE AMICUS1
Amicus is a non-profit corporation registered in
Florida since 2003 as a human rights and social justice
advocacy organization representing over 500,000 fairminded voters in the Sunshine State. Amicus actively
seeks to protect human rights and social justice in
litigation and political forums. These values also are
among the President’s responsibilities as Chief
Executive and Commander-in-Chief under Article II of
the Constitution. Amicus has an interest in these cases
because the subpoenas at issue are virtually limitless,
wide-ranging fishing expeditions into the private
financial affairs of the President and his family and
pose a plausible risk of serious Presidential distraction

1

All parties have consented to the filing of this Amicus Brief. No
counsel or other representative or agent of any party in these cases
authored any part of this Amicus Brief or exercised any form of
control or approval over this Amicus Brief or any portion of it. No
person or entity, aside from Amicus or its counsel, made a
monetary contribution to the preparation or submission of this
Amicus Brief.

2
from the duties and functions of his Office – to the
detriment of the security and welfare of the entire
country.
SUMMARY OF ARGUMENT
This Court should reverse the judgments of the
Second and D.C. Circuits in these 3 cases and order
issuance of the injunctions the President requests.
Amicus fully supports the legal arguments by the
President in these 3 cases. Amicus wishes to focus on
the practical consequences of these subpoenas in their
extraordinary potential for Presidential distraction
which is not consistent with Article II of the
Constitution.
The subpoenas in all 3 cases – often copied from
each other – are massive, unduly intrusive, and
virtually limitless fishing expeditions into the private
financial affairs of the President and his family. They
inevitably will distract and divert the President’s
attention and focus from the serious affairs of State
which besiege his Office on a daily, sometimes hourly
basis. Their serious potential for distraction and
diversion of Presidential energy and focus are not
consistent with Article II of the Constitution and the
unique and awesome responsibilities it imposes on the
President.
The welfare and security of the country – indeed, of
the entire world – demand the President’s undivided
attention to the responsibilities of his Office
unimpaired by the distraction of these blunderbuss
subpoenas.
They probe every minutia of the
President’s private finances and those of his family.

3
Distraction is inevitable and inherent in their breadth
and scope. If these subpoenas do not violate Article II
of the Constitution, it is difficult to imagine any that
would.
Nor are these subpoenas consistent with this
Court’s jurisprudence which permits only discrete and
limited intrusions into the Presidential sphere in terms
of subpoenas or personal liability.
The subpoenas violate the spirit of Article II and
undermine a significant aspect of the 2016 Presidential
election. Article II, as amended by the Twelfth
Amendment, prescribes the procedure for electing the
President. The people have spoken in their election of
Donald Trump. His non-disclosure of his income tax
returns and private financial data was a central issue
in the election campaign. The people chose him,
knowing and accepting this non-disclosure. The
present subpoenas are, in effect, an impermissible end
run around the election, seeking to undo by compulsory
process the Presidential non-disclosure the electorate
chose at the ballot box.
Additionally, the subpoena in 19-635 is invalid for
a further reason. It violates the Division of Powers and
principles of federalism. State and local officials – that
subpoena was issued by the local District Attorney in
New York County, New York – may not control or
impair the President’s performance.

4
ARGUMENT
I. The Subpoenas Should Be Quashed Because of
the Plausible Risk They Will Cause Serious
Distraction and Diversion From Presidential
Duties
Amicus fully supports the President’s legal
arguments against the disputed subpoenas. There are
practical reasons as well under Article II of the
Constitution for issuance of the injunctions the
President requests in all 3 cases.
In all 3 cases, the respondents’ wide-ranging and
blunderbuss subpoenas for virtually all the President’s
income tax returns and financial records for many
years pose the plausible risk of serious distraction from
the President’s performance of his official duties and
responsibilities. The likely distraction and diversion
from the duties of Office are palpable and real.
Article II of the Constitution commands that the
subpoena be quashed.
The official duties and responsibilities of the
President are daunting. Under Article II of the
Constitution, the President is Commander-in-Chief of
the nation’s armed forces, is responsible for their
conduct everywhere in the world, is Chief Executive of
the United States government, the nation’s
representative to the rest of the world, the person
responsible for choosing all major department heads
and federal judges (subject to Senate approval), and the
single person ultimately responsible for the functioning
of the entire Executive Branch of Government.

5
The President has the nuclear-launch codes by his
side 24/7, must be ready and focused at a moment’s
notice to address any crisis at any time anywhere in
the world and beyond, is on-call at 3:00 AM no less
than 9-5, and requires a live-in office in the White
House to discharge his official duties around the clock
and around the world.
The details of the present subpoenas show the
enormity and breadth of their likely distraction from
the President’s critical Article II responsibilities. The
subpoenas in blunderbuss fashion of varying degrees
seek “all” income tax returns, financial statements,
work papers, source documents, and much more, for
an 8-year period from 2011-2019 in 19-635
(App.pp.117a-120a in Cert.Pet. in 19-635), and for
several years in 19-715 and 19-760 (Jt.App.pp.128a140a in 19-715/760). Any reasonable person targeted
by these extremely broad subpoenas would be
distracted and actively concerned in their wake.
This is common sense. The subpoenas inherently
carry with them the potential for both draconian
consequences in their criminal potential and the
specter of litigation surprise and guesswork in their
enormous breadth. Their effect, if not purpose, will
keep any target guessing, concerned, distracted, and in
constant contact with one’s accountants, advisors and
attorneys – precisely the distraction and dysfunction
that Presidential immunity and Article II are designed
to avoid.

6
a. Any Competent Attorney Would Recognize
The Implications of These Broad-Ranging
Subpoenas and Would Demand The Client’s
Immediate and Ongoing Attention –
Confirming Their Serious and Ongoing
Distraction
Any competent attorney would recognize this. Any
competent attorney whose client was served with
broad-ranging subpoenas like these would give the
following advice – get in here (attorney’s office)
immediately so we can assess the situation, examine
the documents and consequences, explore possible
remedies, and discuss tactics and damage control. In
other words, the client needs to be distracted to
cooperate fully with his/her attorney on an ongoing
basis to protect his/her rights. To suggest otherwise is
to be disingenuous in the extreme. An attorney who
gives any lesser advice to a client in this situation
would be guilty of legal malpractice as a matter of law.
Respondents ignore this reality. Respondents
ignore the real-life consequences of their subpoenas.
Respondents may pretend their subpoenas will cause
little or no distraction for the President, but their
arguments fail when measured against the realistic
advice any competent attorney would give to a client in
this situation.
This alone highlights the serious and unavoidable
distraction these subpoenas will cause.
They are
inherently incompatible with Article II of the
Constitution and the need for the President to focus his
energies and attention on the serious, often-life-anddeath affairs of state without the distraction these

7
broad-ranging subpoenas portend. The welfare and
security of all Americans, and likely everyone worldwide, demand no less.
b. The Virtually Limitless Scope of the
Present Subpoenas Distinguishes Them
From the Narrow and Discrete Incursions
This Court Has Permitted Into the
Presidential Sphere
The far-reaching and intrusive reach of the present
subpoenas distinguishes these cases from decisions of
this Court which allowed limited judicial inroads into
the President’s time and energies. Specifically, the
wide-ranging and virtually limitless reach of these
subpoenas distinguishes them from the narrow and
discrete exceptions to Presidential immunity allowed in
Clinton v. Jones, 520 U.S. 681 (1997), and U.S. v.
Nixon, 418 U.S. 683 (1974).
An examination of Clinton and Nixon underscores
the point. In Clinton this Court allowed Ms. Paula
Jones to pursue her claim against the sitting President
Clinton arising from discrete and limited instances
of sexual abuse by Mr. Clinton occurring prior to his
Presidency. This Court in Clinton discussed the
relatively limited intrusion that the action – which
arose from specific discrete events primarily on a single
day in 1991 (520 U.S. at 685) – would portend for the
functioning of the Clinton Presidency. Id., at 691-92.
This Court held that “separation-of-powers principles
would [not] be violated by allowing this action to
proceed.” Id., at 699 (emp.added). This Court in Clinton
further underscored the limited nature of the intrusion
from Ms. Jones’s highly specific claim by analogizing it

8
to – and implicitly approving – two similarly nonintrusive lawsuits against President Kennedy arising
from a single automobile accident occurring prior to his
Presidency. Id., at 692.
This Court permitted the same type of limited
intrusion into Presidential administration in U.S. v.
Nixon. In Nixon this Court upheld a relatively
narrowly focused criminal trial subpoena for discrete
communications between President Nixon and some of
his aides when the latter were criminal defendants.
This Court in Nixon underscored the extremely limited
intrusion of the subpoena because it reflected a
“demonstrated specific need for evidence” consisting of
“disclosure of a limited number of conversations”
(418 U.S. at 713; emp.added).
Thus the discrete and limited foci of both the
lawsuit in Clinton and subpoena in Nixon underscored
the limited nature of any intrusion or dysfunction they
would cause. Neither would adversely affect
Presidential administration or the President’s
responsibilities and duties under Article II. Neither a
single lawsuit arising from discrete sexual acts
(Clinton) nor a subpoena compelling “disclosure of a
limited number of conversations” (Nixon) would impair
the proper functioning of the Presidency or present a
plausible risk that Presidential energies or focus would
be diverted or distracted in a material way.
Clinton and Nixon stand in extreme contrast to the
present subpoenas. The present subpoenas collectively
are blunderbuss, broad, and virtually limitless
commands for production of “all” income tax returns,
financial statements, financial records, supporting

9
papers, and far more, concerning the President, his
family, and his vast multi-billion-dollar business
enterprise spanning a period of 9 years since 2011 in
19-635 (Cert.Pet.App.pp.117a-120a in 19-635), and
either 4 years, 9 years, or without time limit in 19710/765 (Jt.App.pp.265a-266a, 2d Cir.Op. in 19710/765).
There is no way the present subpoenas are
consistent with proper and reasonable functioning of
the Presidential Office.
The subpoenas require
inordinate focus and distraction from any other calling
or endeavor. The ultimate victims will be the American
citizenry and indeed all persons worldwide who depend
on the President’s undistracted attention to the
weighty matters of state and the pursuit of world
peace.
c. The Rationales Employed by the Second
and D.C. Circuits are Misplaced
In each of these 3 cases, the Circuit Courts used
flawed rationales to dismiss arguments of Presidential
distraction. In 19-635, the Second Circuit belittled the
intrusive nature of the subpoena, reasoning it “does not
require the President to do anything at all”
(Cert.Pet.App.p.20a in 19-635) – apparently because
the subpoena technically was directed not to the
President but to his accountants who hold his financial
and tax records. The Second Circuit focused on the
wrong burden. The problem is not the burden of
production but the burdens of distraction and diverted
attention. The latter burdens are real and palpable
under the present subpoenas which pose a plausible
risk of substantial distraction and diversion from

10
Presidential duties in violation of Article II of the
Constitution.
In 19-760 a different panel of the Second Circuit
also erred in rejecting arguments of Presidential
distraction. The panel in 19-760 acknowledged that
where Presidential records are subpoenaed, a court
would need to consider “the objection that it would
distract the Chief Executive in the performance of
official duties” (Jt.App.p.263a in 19-715/760). However,
the panel then dismissed arguments of Presidential
distraction in the case before it by relying erroneously
on this Court’s decision in Clinton v. Jones, supra. The
panel held that “any concern arising from the risk of
distraction in the performance of the [President’s]
official duties is minimal in light of the Supreme
Court’s decision in Clinton v. Jones” (Jt.App.p.309a in
19-715/760). But Clinton v. Jones is far off the mark.
As discussed in detail above, the narrowly focused and
limited intrusion into the Presidential sphere allowed
by this Court in Clinton v. Jones – arising from a single
sexual encounter – is light years away from the
massive and virtually limitless distraction imposed
under the sheer weight and breadth of the present
subpoenas (pp.7-9 supra). There is no way Clinton v.
Jones even begins to support the subpoenas.
Finally, in 19-715 the D.C. Circuit repeated the
mistakes of the two Second Circuit panels. The D.C.
Circuit dismissed concerns over Presidential
distraction on the ground that it is the President’s
accountants, not the President, who will incur the
burden to “retrieve and organize the relevant
information” (Cert.Pet.App.p.75a in 19-715). This

11
repeated the mistake of the first panel of the Second
Circuit which had focused on the burden of production
rather than burden of distraction. The D.C. Circuit
then repeated the mistake of the second panel of the
Second Circuit. It cited Clinton v. Jones as precedent
to support the subpoena’s allegedly permissible
“burden on the time and attention of the Chief
Executive” (Cert.Pet.App.p.75a in 19-715). Like the
Second Circuit, the D.C. Circuit erred by disregarding
the drastic differences between the minimal “burden”
in the narrowly focused litigation in Clinton v. Jones
and the massive burdens and distractions occasioned
under the wide-ranging subpoenas in the present cases
(pp.7-9 supra).
In short, the rationales employed by the Second and
D.C. Circuits are misplaced. They focus on the wrong
burdens, trivialize the realistic burdens of distraction
confronting the President, and mistakenly rely on this
Court’s decision in Clinton v. Jones whose narrow facts
do not begin to support the heavy burdens imposed by
the present subpoenas.
Worse, by ignoring the burdens on the President,
the Second and D.C. Circuits ignore the ultimate
burdens suffered by the American citizenry who must
depend on an undistracted and unimpaired Chief
Executive to protect the country and secure world
peace.

12
d. This Court Has Recognized the Need for
Complete Presidential Immunity To
Prevent the Type of Distraction These
Subpoenas Portend
This Court has underscored the disastrous potential
for Presidential distraction that compels a finding of
Presidential immunity. In Nixon v. Fitzgerald, 457 U.S.
731 (1982), this Court held that the President is
immune from personal liability for official acts
performed in office because of the serious potential for
Presidential distraction over fears of personal liability.
This Court held:
“Because of the singular importance of the
President’s duties, diversion of his energies by
concern with private lawsuits would raise
unique risks to the effective functioning of
government. As is the case with prosecutors and
judges – for whom absolute immunity is now
established – a President must concern himself
with matters likely to arouse the most intense
feelings…. Nor can the sheer prominence of the
President’s office be ignored. In view of the
visibility of his office and the effect of his actions
on countless people, the President would be an
easily identifiable target for suits for civil
damages. Cognizance of this personal
vulnerability frequently could distract a
President from his public duties, to the
detriment of not only the President and his office
but also the Nation that the Presidency was
designed to serve.”
Nixon v. Fitzgerald, 457 U.S. at 751-53.

13
Admittedly, Nixon v. Fitzgerald dealt with
Presidential immunity for official acts rather than
immunity from litigation over private acts. But the
distraction and diversion of energies that both cause
are the same especially where, as here, the titanic
nature of the subpoenas concerning private acts carries
over into the public sphere and creates a plausible risk
of diversion of energies and distraction from official
Presidential duties.
This Court’s later analysis of Nixon v. Fitzgerald is
not inconsistent with this result. In Clinton v. Jones,
this Court explained that the “dominant concern” in
Nixon v. Fitzgerald was to protect the President from
liability for official acts by enabling the President to
make official decisions without “diversion of the
President’s attention” caused by concerns over a later
damage action. 520 U.S. at 694 n.19. But the fact that
this was the “dominant concern” in Nixon v. Fitzgerald
does not mean it was the only concern. This Court’s
broader recognition in Nixon v. Fitzgerald – of the
deleterious effects that the judicial process (including
subpoenas) may have on Presidential function and
performance – applies as much to overbroad intrusion
into private matters as to personal liability arising
from official acts.
This Court left open exactly this issue in Clinton v.
Jones. In Clinton this Court recognized that – and
expressly did not decide whether – an “exceptional
case[ ]” may require a blanket Presidential immunity
from a particular judicial process notwithstanding its
origin in private rather than official acts (520 U.S. at
690n.12: not decide “exceptional case[ ]”). For this

14
purpose, the present petition clearly involves an
“exceptional case” warranting Presidential immunity
and entry of the requested injunction. The enormous
breadth and depth of the wide-ranging subpoenas in
the present cases – and the distraction and diversion of
Presidential energy and focus they will cause –
distinguish these cases from the discrete and limited
incursions into Presidential time this Court permitted
in Clinton v. Jones for the single lawsuit arising from
discrete acts of sexual harassment or in U.S. v. Nixon
for the specific and limited trial subpoena for
“disclosure of a limited number of conversations.”
Indeed, if these cases are not “exceptional cases”
warranting Presidential immunity, it is hard to
imagine any case that would be. The integrity and
function of the Presidency clearly warrant the
injunctions the President seeks.
e. The Present Subpoenas Violate the Spirit
of Article II and Undermine a Significant
Aspect of the 2016 Presidential Election
Article II of the Constitution, as amended by the
Twelfth Amendment, prescribes the procedure for
electing the President. The people have spoken in their
election of Donald Trump. His non-disclosure of his
income tax returns and private financial data was a
central issue in the 2016 Presidential election
campaign. The people elected him, knowing and
accepting this non-disclosure. If democratic elections
of the President are to mean anything, their expression
of popular preference should weigh heavily in the
resolution of this Article II dispute. Under authority of
this exact same constitutional provision, the people

15
have already decided the issue of non-disclosure in the
exercise of their democratic prerogatives.
Viewed in this perspective, the present subpoenas
are nothing less than an impermissible end run around
the 2016 election. They seek to undo by compulsory
process the Presidential non-disclosure the people have
already chosen at the ballot box.
f. The Issue Raised by the Petitions is Not a
Partisan or Political Issue, But an
Institutional Issue Upon Which the
Integrity of the Presidential Office
Depends
This is not a political or partisan issue. Rather, this
is an issue that goes to the heart and soul of the
Presidential Office and the President’s ability to
function effectively as the elected Chief Executive of
the nation. This is an issue which cuts across party
lines and transcends partisan beliefs. A Republican or
Conservative President today who is victimized by an
abusive subpoena issued by Democratic or liberal
governmental officials may be followed tomorrow by a
Liberal Democratic President victimized by a similar
subpoena issued by Conservative Republican
opponents. Neither is permissible. Neither can
withstand scrutiny under Article II of the Constitution.
The protection of the institution of the Presidency
requires the injunction the President seeks.
For these reasons, the President’s ability to perform
his Article II responsibilities unimpaired by
distractions from respondents’ wide-ranging
blunderbuss subpoenas mandates reversal of the

16
judgments of the Second and D.C. Circuits with
directions to issue the injunctions the President
requests.
II. In 19-635, The Subpoena Should Be Quashed
Also Because State and Local Authorities May
Not Issue Process Which Impairs The
President’s Ability to Perform His Official
Duties
In addition to the above reasons for granting the
requested injunctions, the nature of our federal system
separately requires an injunction in 19-635. The
subpoena in 19-635 emanates not from a federal
authority but from the local District Attorney in New
York County, New York. This Court has consistently
held that State and local officials may not use their
powers to impair or affect the functions of federal
officials. Clinton v. Jones, 520 U.S. at 691 n.13
(“Because [of] the Supremacy Clause … any direct
control by a state court over the President … may
implicate concerns that are quite different from the
inter-branch separation-of-powers questions addressed
here [federal court vs. President]”);2 see also Johnson v.
Maryland, 254 U.S. 51 (1920) (State may not require
U.S. Post Office mail-truck driver to obtain State
driver’s license); Osborn v. Bank of United States, 22
U.S. 738, 867-68 (1824) (State may not control or tax

2

This Court in Clinton v. Jones expressly declined to decide
whether a State court action could proceed against the President,
520 U.S. at 691, while strongly intimating that it may not. Id., at
691 n.13.

17
an entity of the federal government); M’Culloch v.
Maryland, 17 U.S. 316, 429-30 (1819) (same).
The import and lesson of these cases are clear. They
restrict State authority which purports to control or
impair in any way the official performance of a federal
governmental official or entity. That is, “the activities
of the Federal Government are free from regulation by
any State.” Mayo v. U.S., 319 U.S. 441, 445 (1943).
This principle should apply with special vigor to protect
the Office of the President – the federal government’s
Chief Executive officer – from assertions of control by
State courts.
There are an estimated 2,300+ local prosecuting
attorneys’ offices throughout the United States
(Pet.br.pp.25-26 in 19-635). The potential for abuse and
political mischief is obvious. Many local District
Attorneys, if not most – including the respondent in 19635 – are elected in partisan elections with strong
political biases. Not surprisingly, the respondent
District Attorney in 19-635 is an elected Liberal
Democrat who has served his wide-ranging criminal
subpoena seeking information and documents from a
Conservative Republican President. To allow this kind
of political gamesmanship to infect and distract the
Presidency with compulsory subpoena process is to
degrade the Office of the President and expose every
future President to the same meddling, control,
distraction and abuse.
If allowed in this case, then every future President
– especially Presidents with extensive business
holdings – will be vulnerable to the same abuse and
degradation. It will not matter whether the President

18
is a Democrat, Republican, Liberal, Conservative, or
otherwise. There will always be some local prosecutor
somewhere – among the 2,300+ in the United States –
who will want to follow suit against any given
President, if allowed in 19-635. Article II of the
Constitution and the integrity of the Office of the
President command that this be shut down, now.
CONCLUSION
It bears emphasis that the impermissibility of the
State court subpoena in 19-635 is merely an
additional reason to quash the subpoena in that
particular case. The primary reason, discussed above,
remains and applies in all 3 cases under review: The
subpoenas are not confined to the type of discrete and
limited intrusion into the Presidential function allowed
in Clinton v. Jones or U.S. v. Nixon but instead
constitute wide-ranging, virtually limitless and
blunderbuss commands for production of documents
that trigger a plausible risk of serious Presidential
distraction and diversion of energy and focus that will
impair the ability of the President to perform his
official duties.
The subpoenas contravene Article II of the
Constitution. This Court should reverse the judgments
of the Second and D.C. Circuits and order entry of the
injunctions the President requests.

19
Respectfully submitted,
DENNIS GROSSMAN
Counsel of Record
6701 Sunset Drive, Suite 104
Miami, Florida 33143
(516) 466-6690
dagrossmanlaw@aol.com
Counsel for Amicus Curiae
Dated: February 3, 2020

